»&{
No.

1 B. i

&« *

2fn t!je Supreme Court of tfje 3Emteb States;

1

filedJUN 0 3 2021

Susan Chen.
Petitioner

^REMECnlwgj^

v.
Darren Migita, M.D., Ian Kodish, M.D., James
Metz, M.D. and Seattle Children’s Hospital.
Respondents

On Petition for a Writ of Certiorari to
The Washington Supreme Court

PETITION FOR A WRIT OF
CERTIORARI

Susan Chen, pro se petitioner
PO BOX 134, Redmond, WA 98073
Tel: (323)902-7038

RECEIVED
JUL 2 9 2021

1

QUESTIONS PRESENTED
Under Due process, adequate notice must be given
to the affected parties. The current petition and the
underlying four-years' appellate litigation are
results of Washington courts’ refusal to clarify an
ambiguous order about whether minor, J.L. was
bound to the dismissal order or whether the
dismissal to the minor was without prejudice.
Petitioner pro se filed a lawsuit, mistakenly added
J.L.’s name but quickly informed the court that she
cannot represent minor in court as non-attorney. A
Washington state court judge dismissed the action
upon Defendants’ pre-discovery motion for
summary judgment announcing the lack of personal
jurisdiction over defendants due to the plaintiffs’
defective service. The order was silent as to whether
it was with or without prejudice as to the
unrepresented minor plaintiffs (“2017 Order”). The
Chief Judge expressed his intent to vacate the
ambiguous order, reasoning that a dismissal
without prejudice was the limit that a court lacking
jurisdiction could act and that parties are entitled to
a clear judgment (“2019 Intent”) - the Order has not
yet been formally entered.
Defendants appealed the court’s intent. The
Washington Court of Appeals reversed, concluding
that the Chief Judge abuses the discretion to
resolve the jurisdictional challenge, opined that the
Court has no obligation to first determine whether
or not it has jurisdiction. The Court of Appeals
disagreed with chief judge and ordered the indigent
Petitioner (Respondent on appeal) to pay appellate

11

costs and fees to the appeal initiated by the
Respondents (Appellants on appeal).
1. Whether a state court’s dismissal order, absent
clear languages about the legal effects; and its
further refusal to clarify - which has led to four
violate notice
years’ appellate litigations
requirement of procedural due process as set out
in the Fourteenth Amendments’ Due Process
Clause?
2. Whether the Court has authority to further rule
on the merits of the claims and dismiss the
unrepresented children’s claims, after it has
announced lacking personal jurisdiction over
defendants.
3. Whether the Court has personal jurisdiction over
a disabled minor who was unrepresented by legal
lawyer and guardian ad litem - while all federal
circuits dismissed the unrepresented minors’
claims without prejudice because pro se parents
are not permitted to represented minors in both
federal and state courts. 28 U. S. C. § 1654;
RCW 2.48.180.
4. Whether the Court is under the duty to first
resolve the jurisdictional issue before ruling on
the merits of the case.
5. Whether it is unconstitutional for the state Court
to impose legal financial sanction upon the
passive indigent Respondents who were forced to
respond to the interlocutory appeal - if any
appellate costs - completely occurred by the
appellants themselves.

Ill

TABLES OF CONTENTS
QUESTIONS PRESENTED
TABLES OF AUTHORITIES

1

vi

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISION INVOLVED

1

STATEMENT OF THE CASE

3

REASON FOR GRANTING THE PETITION
I.

The Court Must Resolve The Jurisdiction
14
Defects Whenever Comes To Light

II.

This Case Is An Appropriate Vehicle For
Deciding This Important Constitution
Question Related to Due Process Rights.....19
A. The Ambiguous Order Itself Is A Due Process
19
Violation
B. The Trial Judge’s Failure To Recuse Is A Due
24
Process Violation

III.

The Question Presented Involves A
Recurring Issue of Exceptional Importance
That Threatens The Fundamental Right Of
26
Access To The Courts

A. Absent Legal Representation, J.L.’s access to the
27
Courts had been denied

13

IV

B. This is an Ideal Vehicle to Address the “Seldom”
Reviewed but Important Rights of Access to The
30
Courts
CONCLUSION

31

V

APPENDIX A:
Order of the Washington Supreme Court, filed on
la
January 6, 2021
APPENDIX B:
Orders of the Washington Supreme Court, filed on
2a
April 28, 2021
APPENDIX C:
Opinion of the Washington Court of Appeals filed
3a
on June 22, 2020
APPENDIX D:
Order of the Washington Court of Appeals denying
19a
reconsideration dated on July 22, 2020
APPENDIX E:
Ruling of the Washington Court of Appeals denying
20a
appointment of counsel for J.L
APPENDIX F:
Orders from the Washington State King County
22a
Superior Cour in 2017 ("2017 Order”)
APPENDIX G:
Orders from the Washington State King County
27a
Superior Court in 2019 (“2019 Intent”)
APPENDIX H:
Order from the Washington State King County
Superior Court granting motion to recuse Smith
34a
Goodfriend, P.S
APPENDIX I:
Respondents’ Motion for Summary Judgment....37a

■A

VI

APPENDIX J:
Petitioner’s Motion for Reconsideration, filed at the
81a
trial court
APPENDIX K:
Petitioner’s Opening Brief, filed at Washington
94a
Court of Appeals
APPENDIX L:
Petitioner’s RAP
Authorities

10

Statement

of Additional
159a

APPENDIX M:
Petitioner’s Motion for Reconsideration, filed at
159a
Washington Court of Appeals
APPENDIX N:
Petitioner’s Motion for Reconsideration, filed at
162a
Court of Appeals
APPENDIX O:
Petitioner’s Petition for review filed in Washington
168a
Supreme court

Vll

TABLE OF AUTHORITIES
FEDERAL CASES
Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813 (1986)

26

Asahi Metal Indus. Co. v. Superior Court,
107 S. Ct. 1026 (1987).............................

14

Baltimore Contractors, Inc. v. Bodinger,
348 U.S. 176, 181 (1955).....................

13, 18

BNSFRy. Co. v. Tyrrell, 137 S. Ct. 1549 (2017)

15

Boddie v. Connecticut. 401 U.S. 371 (1971)

31

- Bounds v. Smith, 430 U.S. 817 (1977)........

30

Bristol-Myers Squibb Co. v. Superior Court of Cal,
137 S. Ct. 1773 (2017).............................................

15

Burger King Corp. v. Rudzewicz, 105 S. Ct. 2174 (1985)....14
Caperton v. A.T.Massey Coal Co., 556 U.S. 868 (2009)

19

Calder v. Jones, 465 U.S. 783 (1984).........................

14

Cheung v. Youth Orchestra Found. Of Buffalo, Inc.
906 F.2d 59,61 (2d Cir. 1990).............................

27

Cipollone v. Liggett Group, Inc., 505 U.S. 504 (1992)

18

Daimler AG v. Bauman, 571 U.S. 117 (2014)

15

Devine v. Indian River County Sch. Bd., 121 F.3d 576, 578,
582
(11th
Cir.
1997),
cert.
denied,
522
(U.S.
27
1110(1998)

\

Vlll

13,14,21

Ex parte McCardle, 7 Wall. 506, 514 (1869)
Great Southern Fire Proof Hotel Co., v. Jones,
177 U.S.. 449, 453 (1900)............................
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011)...............................................

15, 16

15

Graham-Humphresys v. Memphis Brooks Museum of Art,
29
Inc., 209 F.3d 552, 561 (6* Cir. 2000)
17, 18

Hanson v. Denckla, 357 U.S. 235 (1958)
Helicopteros Nacionales de Colombia, S.A. v. Hall,
466 U.S. 408 (1984).................................................

14
24, 26

In re Murchison, 349 U.S. 133, 136 (1955)

Insurance Corp. of Ireland v. Compagnie de Bauxites des
15
Guinee, 456 U.S. 694 (1982)
Johns v. County of San Diego,
114 F.3d 874, 876-77 (9th Cir. 1997)

11, 17, 27,29,30

J. McIntyre Mach., Ltd. v. Nicastro,
564 U.S. 873 (2011)..................

15

Keeton v. Hustler Magazine,
465 U.S. 770 (1984)...

14

Mansfield, C. & L. M. R. Co. u. Swan,
U.S. 379, 382 (1884)..............................................

13, 15

Meeker v. Kercher, 782 F.2d 153, 154 (10th Cir. 1986)

27

Mezere v. Flory, 26 Wn. 2d 274, 173 P.2d 776 (1946)

19

IX

McGirt v. Oklahoma, 591. U.S._(2020)

18

McNeil v. United States, 508 U.S. 106, 113 (1993)

28

Melo v. U.S. 505 F 2d 1026 (8th Cir. 1974)

11

Myers v. Loudon County Pub. Schs.,

27

418 F.3d 395, 401 (4th Cir. 2005).....
O’Diah v. Volkswagen of Am., Inc.,
91 Fed. Appx. 159, 160 (1st Cir. 2004)

27

Osei-Afriyie v. Medical College of Pennsylvania,
937 F.2d 876, 883 (3«* Cir. 1991)................

27, 30

Phillips Petroleum v. Shutts, 472 U.S. 797 (1985)

14

Schlesinger v. Reservists Comm, to Stop the War,
418 U.S. 208, 227 (1974)...................................

14

Shaffer v. Heitner, 433. U.S. 186 (1977)

17

Shepherd v. Wellman, 313 F.3d 963, 970 (6th Cir. 2002)....27
Smith v. Smith, 49 Fed. Appx. 618, 620 (7th Cir. 2002)
Steel Co. v. Citizens for a Better Env’t
523 U.S. 83, 101 (1998)................
Turney v. Ohio, 273 U.S. 510 (1927)
United States v. Corrick, 298 U.S. 435, 440 (1936)

27

14, 15, 16
26
13, 18

United States v. Richardson, 418 U.S. 166, 179 (1974)....14
Walden v. Fiore, 571 U.S. 277 (2014)

15

X

Winkelman v. Parma City School District,
550 U.S. 516 (2007).............................

27

WASHINGTON STATE CASES
Allied Fid, Ins. Co. v. Ruth,
57 Wn. App. 783 790 P.2d 206 (1990)

12, 23

Anderson v. Dussault,
181 Wn.2d 360, 333 P.3d 395 (2014)

20

Dependency of A. G.,
'
93 Wn.App. 268, 968 P.2d 424 (1998)

19

Diimmel v. Campbell,
68 Wn.2d 697, 699, 414 P.2d 1022 (1966)

24

Dike v. Dike, 75 Wn.2d 1, 448 P.2d 490 (1968)

23

Hagan v. Kassler Escrow, Inc.,
96 Wn.2d 443, 635 P.2d 730 (1981)

28

Newell v. Ayers, 23 Wn. App. 767, 598 P.2d 3 (1979)

20

Schroeder v. Weighall et al.
179 Wn.2d 566; 316 P.3d 482 (2014)

8, 20, 21

State ex rel. McFerran v. Justice Courts of Evangeline Starr,
24
32 Wn.2d 544, 548, 202 P.2d 927 (1949)
State ex. Rel. Barnard v. Bd. Of Educ.,
19 Wash. 8, 17, 52 P.317 (1898)..
State v. Nw. Magnesite Co.,
28 Wn.2d 1, 182 P.2d 643 (1947)

24

9

XI

State v. Douty, 92 Wn. 2d 930, 603 P.2d 373 (1979)

20

State v. Yishmael,
195 Wn.2d 155, 456 P.3d 1172 (2020)

28

Wash. State Bar Assn. v. Great W. Union Fed. Sav. & Loan
11, 20, 28
Assn., 91 Wn.2d 48, 586 P.2d 870 (1978)
OTHER AUTHORITIES
Brilmayer, How Contacts Count: Due Process Limitations
on State Court Jurisdiction, 1980 Sup. Ct. Rev. 77, 7717
79
Frank, Disqualification of Judges, 56 Yale L.J. 605, 611612
26
(1947)
George, In Search of General Jurisdiction, 64 Tu L. L. Rev.
17
1097, 1107 (1990)
Kurland, The Supreme Court, the Due Process Clause and
the In Personam Jurisdiction of State courts: From
Pennoyer to Denckla: A Review, 25 U. Chi. L. Rev. 569, 573
17
(1958)
The Federalist No. 10, p. 59 (J. Cooke ed. 1961) (J.
26
Madison)
RULES AND STATUTES
RCW 4.08.050

19

RCW 2.48.180

17, 20, 28

RCW 4.16.190

8, 20, 21

Xll

RCW 2.48.170

12

RAP 7.2(e)

10
10, 11

RAP 10.8
Washington
2.11(A)(6)(d)

Code

28U.S.C. § 1654

of

Judicial

Conduct

Rule
25

11, 17, 28

1
PETITION FOR A WRIT OF CERTIORARI
Susan Chen respectfully petitions for a writ of
certiorari to review orders from Washington
Supreme Court.
OPINIONS BELOW
On January 6, 2021, the Washington Supreme
court denied discretionary review of Court of
Appeals’ Opinion reversing Superior court’s 2019
Order vacating the 2017 summary judgment of
dismissal orders. On April 28, 2021, the
Washington Supreme Court denied Petitioner’s
Motion to modify Commissioner’s Ruling of
imposing appellate legal financial sanction against
indigent Petitioner (Respondent below). The orders
are attached as APP. A-B, at la-2a.
JURISDICTION
The Washington Supreme Court denied
discretionary review on January 6, 2021. On March
19, 2020, this Court extended the deadline to file a
petition for certiorari to 150 days from the date of
order denying discretionary review. This Court has
jurisdiction under 28 U.S.C. §1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Fourteenth Amendment to
Constitution provides, in relevant part:

the

U.S.

No State shall * * * deprive any person of life,
liberty, or property, without due process of
law.

2
FEDERAL STATUE INVOLVED
28 U. S. C. § 1654 provides, “In all courts of the
United States the parties may plead and conduct
their own cases personally or by counsel.”

3
STATEMENT OF THE CASE
A. Facts Giving Rise to This Case.
Seattle Children’s Hospital (“SCH”) has a long
history of making false allegation towards innocent
parents, including but not limited to the
misdiagnosis of mother having a non-existent and
rarely seen disease called Munchausen by Proxy. A
SeattlePI investigative article published in 2002
revealed that one single doctor from Seattle
Children’s Hospital had (wrongfully) accusing over
one hundred mothers having Munchausen, all of
which was eventually proven to be false.1
Prior to the event occurred in 2013, J.L. had
been seeing the GI clinic of SCH at over one year,
for different digestive problems such as diarrheas,
constipation, gas, failure to gain weight, etc.
The three SCH Defendant doctors, Darren
Migita, James Metz and Ian Kodish (Collectively
“Migita”2) ignored J.L.’s medical history available in
their own institution, did not consult with J.L.'s
main treating physicians whose names were known
to them in the medical records and labs. Other than
negligent, they provided the knowingly false
information to child protective services (“CPS”). For
example, Defendant Darren Migita claimed J.L.
suffering from kidney failure (while in fact J.L.’s
kidney function was normal and the only mediation

i

https://www.seattlepi.com/news/article/Persecuted - parents
- or — protected - children - 1092970.php
2 For easy statement purpose, no disrespect.

4
he was given was “Bisacodyl,” a medication for
constipation); Defendant Metz wrote in the report
(sent to CPS) that Chen did not send J.L. to ER on
20th but the medical records showed the contrary.
Kodish claimed J.L. did not have autism but
reactive attachment disorder with caregivers
though he never observed the interaction between
J.L. and his parents. The Juvenile Court was
“outrageous” with Darren Migita’s below-thestandard care for not consulting with the minor
patient’s main treating physician, talking with
parents, and reviewing his medical records before
jumping to a conclusion.
As the presiding judge for the dependency
action caused by defendants’ misstatements, Judge
Hollis Hill reviewed testimonies from J.L.’s
multiple medical providers; and made multiple
discretionary decisions including but not limited to
a (later-proven-to-be-wrong) decision of placing J.L.
in foster homes resulting into long-lasting damages.
After one-year’s investigation, the State
that
defendant
James
Metz’s
concluded
misstatements were simply “contrary to” the
medical facts in J.L.’s medical records and moved to
strike the dependency petition before trial. King
County Prosecutors moved to dismiss the wrongful
criminal charges against J.L.’s mother, Susan Chen
“in the interest of justice” and “due to the evidence
discovered after filing [which had been withheld].”
These rightful dismissals came too later. The
consequences for Susan Chen and her minor child,
J.L. were tragic. Due to the one-year removal,
interruption, and denial of his therapy, withheld

5
medications and treatment, J.L. lost all the abilities
he previously had and cannot regain the skills. At
age 10, he cannot speak, and scream uncontrollably,
sometime for hours, at any actual or possible
separation from his family. These conditions were
not present before he was falsely seized.
Defendant physicians’ negligence was true. All
the damages done to Chen and J.L. were real. Chen
was falsely arrested, jailed and prosecuted, and had
to carry on the pains with her son’s permanent
losing abilities as a result of Migita’s negligence.
J.L. did nothing wrong but had been harmed and
will carry on all the pains and damages to the end
of his life. It is unfair for him to be declined every
right to have his claims fully reviewed by the Court.
Whether or not J.L. will eventually prove his
case should be left to the jury, Petitioner will not go
into details here. 3 Fundamentally, J.L. is entitled
to his day in court with the assistance of a
competent counsel but had been unfairly deprived
of such right by Washington courts.
B. The State Superior Court Proceedings (I)
In October 2016, Chen pro se filed lawsuit
against the three defendant physicians. Chen
mistakenly added minors’ name in the complaint,
but quickly brought to the Court’s attention that
pro se parents cannot represent minors. See Clerk’s

3 The Opinion below did not include all facts. This Court is
invited to review facts in 120-124a, 195-198a, 83-93a.

6

paper (“CP”) 4 (“I was not able to represent my
children”); and asked the court to give them time to
retain an attorney (CP 5). The issue was
unaddressed.
In December 2016, Defendants moved for a pre­
discovery summary judgment, arguing at length
that trial court lacked personal jurisdiction over
them due to Chen’s improper service, and that lack
of signature on the complaints. They concluded the
defects rendered the complaint void ab initio. See
App. I, at 62a, 65a.
In their motion for dismissal, the defendant
doctors (joined by SCH) made a lengthy argument
that the improper service and lack of signature on
two of the complaints rendered the complaints void
ab initio. Thus, they stated that:
•

“this Court lacks personal jurisdiction over Dr.
Migita, Dr. Kodish, and Dr. Metz because
Plaintiffs failed to effect original service of
process” See App I, at 37a.

•

“Voided complaints have no legal effect and
are not subject to later amendment because
there is nothing to amend” See Id, at 38a

•

if the summons and complaint are not
completed within 90 days, “the action is
treated as if it had not been commenced” See
Id, at 58a;

•

“If the original complaint is void, there is
nothing to amend (Id, at 61a); “Something that
is “void” has no legal effect” (Id at 62a);

7
•

“the filing of a void complaint does not
commence a civil action” (Id, at 64a);

•

“the complaint Plaintiff seeks to amend does
not exist, it is a nullity because it was void ab
initio and “there can be no ‘relation back’ to a
pleading . . . that was a nullity from the start”
(Id, at 65a); and

•

plaintiffs’ complaints should be dismissed
“because they were void ab initio, and
therefore, they failed to confer subject matter
jurisdiction upon this Court” (Id, at 66a).

In support the motion each defendant
submitted several sentence declarations (Id, at 7576a; 77-78a; 79-80a) and twenty pages’ medical
records (the entire medical records were 600 pages).
Judge Hill declined Petitioners’ very first request
for weeks continuance to allow the appearance of
counsel, granted the summary judgment and
entered a dismissal order, but silent in language
about whether it was with or without prejudice.
App F, at 24-26a.
Chen moved for reconsideration, asking the
Court to clarify the order was without prejudice as
to the minor. Chen wrote,
The Order is silent as to whether this
dismissal was with or without prejudice.
As to the minors’ claims only, the dismissal
should be without prejudice for re-filing, as
they are still in their minority, and the
statute of limitations is tolled until they

8
reach majority. RCW 4.16.190. Schroeder v.
Weighall et al. 179 Wn.2d 566; 316 P.3d
482; 2014 Wash., holding RCW 4.16.190 (2),
which excluded medical malpractice claims
from tolling unconstitutional.
Alternatively, due to failure to appoint a
GAL to bring the action, the action on
behalf of the minors was a nullity, and
there was no action on behalf of the minors
for judicial consideration, and therefore no
action to dismiss.
Judge Hill denied the motion, again, without
any explanation. App. F, 22-23a.
Chen appealed, pleading for a clear judgment as
the party bound by the judgment. Chen’s appeal
was dismissed.4 Chen sought discretionary review
at the state supreme court, pleading an answer for
the ambiguous order in 2019, which was not
accepted.
C.The State Superior Court Proceedings (II)
Chen later obtained J.L. 600 pages’ complete
medical records from a separate civil action (where
she was represented) and filed motion to vacate the
2017 order before the chief judge, Ken Schubert.

^ Chen’s request for appointment of counsel for minor, J.L. as a
reasonable accommodation under ADA and GR 33 was denied by the
Court of Appeals. The Clerk ruled that, “[i]t appears that appointing
counsel in this case risks fundamentally changing the nature of
appellate court services.” See App E, at 21a.

9

Migita’s appellate attorney Smith Goodfriend
(“Goodfriend”) was Chen’s consulting counsel. Chen
moved to disqualify Goodfriend which was granted
by the trial court (See App H, at 34-36a).
Relying on the Washington Supreme Court’s
holding in State v. Nw. Magnesite Co., 28 Wn.2d 1,
182 P.2d 643 (1947) that a dismissal without
prejudice is the limit that a court lacking personal
jurisdiction could act, Judge Schubert eventually
granted Chen’s Motion to Vacate the 2017 Order.
See App G, at 30-33a. Judge Schubert wrote,.
Whether the Court dismissed plaintiffs’
complaint on jurisdictional or substantive
grounds is critical. If the Court did not have
personal jurisdiction over Defendants, then
it had no power to rule on the merits of the
claims asserted against them and the
dismiss could not have been with prejudice
as a matter of law. See State v. Nw.
Magnesite Co., 28 Wn. 2d 1, 42, 182 P.2d
643, 664 (1947) (“However, we do not agree
with the trial court that the order
dismissing those respondents should be
with prejudice to the state's cause of action
against them. The court having been
without jurisdiction over those parties, by
reason of lack of proper service upon them
or of general appearance by them, it had no
power to pass upon the merits of the state's
case as against those parties.”). But if the
Court did have personal jurisdiction over
Defendants, then it could properly reach the
merits of plaintiffs’ claims against them and

10
the dismissal of those claims
presumably be with prejudice.

would

Under Washington laws, permission was
required for the entry of an order on motion to
vacate after the appeal was already filed. Judge
Schubert thus wrote,
Should the appellate court so permit, this
Court will enter a formal order vacating the
March 3 and April 10, 2017 orders pursuant
to CR 60(b) as to Defendants only. This
Court must receive that permission because
plaintiffs have appealed this Court's March
3 and April 10, 2017 orders and this order
will change a decision then being reviewed
by the appellate court. See RAP 7.2(e).
Before the Order was formally entered, Migita
appealed the Order. Judge Schubert entered a
clarifying that his order is not subject to appeal
before it was formally entered. See App G, at 27-29a.
Chen contended that the order was unappealable
because the order was not even a formal order, but
an intent; and even if it was a formal order, it was
an interlocutory decision because it did not affect
parties’ rights. Chen argued, the order vacating
order granting summary judgment is similar to an
order denying summary judgment which is not an
appealable order. The Court denied Chen’s request
to dismiss a pre-mature appeal.
Two months before the Court of Appeals
decided the appeal. Chen submitted RAP 10.8
Statement of Additional Authorities. App L at 1712a):

11

Pursuant to RAP 10.8, Appellants cite the
following additional authorities, with regard
to issues in their opening brief, i.e., (1)
whether trial court lacking personal
jurisdiction can reach merits (e.g., Brief at P.
20- 24) and (2) whether minors had been
properly before the court (e.g., Brief at P. 31;
39).
Melo v. U.S. 505 F 2d 1026 (8th Cir. 1974)
("Once jurisdiction is challenged, the court
cannot proceed when it clearly appears that
the court lacks jurisdiction, the court has no
authority to reach merits, but rather should
dismiss the action.")
28 U.S. Code § 1654 ("In all courts of the
United States the parties may plead and
conduct their own cases personally or by
counsel...”.).
Johns v. County of San Diego, 114 F. 3d 874,
877 (9th Cir. 1987) (“a nonlawyer ‘has no
authority to appear as an attorney for
others than himself’)
Wash. State Bar Assn. v. Great W. Union
Fed. Sav. & Loan Assn., 91 Wn.2d 48, 586
P.2d 870 (1978) (“[ojrdinarily, only those
persons who are licensed to practice law in
this state...“[t]he ‘pro se’ exception are quite
limited and apply only if the layperson is
acting solely on his own behalf.”
RCW 2.48.170 (“Only active members may
practice law”).

12

The Court of Appeals did not address any the
above authorities, reversed Judge Schubert’s Intent
to vacate the 2017 Order granting Summary
Judgment, opined that the trial court was not
obliged to first determine the jurisdiction, and
concluded that Judge Schubert abused his
discretion for resolving the jurisdictional issue in
Chen’s favor. App C, at 14a. (“We need not resolve
the issue of whether Judge Hill, in fact, first
resolved the jurisdictional issue in Chen’s favor.”).
Chen sought the second discretionary review at
the state supreme court, challenging that “Division
the
fundamental
One’s
decision
ignores
jurisdictional issue” (App N.at 209a) and the Court
was under “nondiscretionary duty” to vacate the
underlying 2017 order which was void ab initio. {Id,
at 214a). Chen argued that “[a] judgment entered
by a court which lacks jurisdiction is void and must
be vacated whenever the lack of jurisdiction comes
to light. Allied Fid. Ins. Co. v. Ruth, 57 Wn.App 783,
790 P.2d 206 (1990).” (Id, at 214a)
The Court of Appeals further awarded fees and
costs to Migita and Seattle Children’s Hospital
under RAP 14.2. Chen’s contention that RAP 14.2
should not apply to indigent Respondent who was
at no fault, but passively forced to respond to the
appeal initiated by Migita was denied. Chen sought
discretionary review in Washington state supreme
court, which was denied. See App. B, at 2a.
Thus far, Chen has exhausted all the state level
remedies.

13
REASONS FOR GRANTING THE PETITION
Jurisdiction is the elementary prerequisite for a
court to exercise its judicial power over the case.
Without jurisdiction, the court can do nothing but
to dismiss the case without prejudice. Ex parte
McCardle, 7 Wall. 506, 514 (1869). Jurisdiction is
always the first question a court must address;
Mansfield, C. & L. M. R. Co. v. Swan, 111 U.S. 379,
382 (1884). It is “the responsibility of all courts.”
Baltimore Contractors, Inc. v. Bodinger, 348 U.S.
176, 181 (1955). When the lower courts lack
jurisdiction, this Court is obliged to exercises its
supervisory power for “the purpose of correcting the
error of the lower court.” United States v. Corrick,
298 U.S. 435, 440 (1936).
Here, the Washington court suggested, “[the
chief judgej’s conclusions that Judge Hill was
required to address the personal jurisdiction issue
before the merits ... We need not resolve the issue
of whether Judge Hill, in fact, first resolved the
jurisdictional issue in Chen's favor.” See App C, at
14a. If this suggestion is accepted, the legal system
will be in disordered condition, e.g., a California
Court could rule against a Florida resident without
having to first establish jurisdiction or a
bankruptcy court could take over matters in
criminal court even having no subject-matter
jurisdiction. This Court should reverse in light of
McCardle and Mansfield.
It has been the unanimous decision through all
circuits across the country that a lay parent cannot
represent her minor child in courts. The
Washington court suggested differently. This Court

14

should accept for review and resolve the conflicts.
See SUP. CT. R. 10 (b).
The
Resolve
I. The
Court
Must
Defects Whenever
Jurisdiction
Comes To Light.
Jurisdiction is the power to exercise authority
over persons and things within a territory. “Without
jurisdiction the court cannot proceed at all in any
cause. Jurisdiction is power to declare the law, and
when it ceases to exist, the only function remaining
to the court is that of announcing the fact and
dismissing the cause.” Ex parte McCardle, 7 Wall.
506, 514 (1869). “The statutory and (especially)
constitutional elements of jurisdiction are an
essential ingredient of separation and equilibration
of powers, restraining the courts from acting at
certain times, and even restraining them from
acting permanently regarding certain subjects.”
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83,
101 (1998); United States v. Richardson, 418 U.S.
166, 179 (1974); Schlesinger v. Reservists Comm, to
Stop the War, 418 U.S. 208, 227 (1974).
Given its importance, jurisdiction is probably
one of the most reviewed issues before this Court.
For example, this Court has dealt with the issue
seven times in five years, e.g., Asahi Metal Indus.
107
S.
Ct.
Superior
Court,
Co.
v.
1026 (1987); Burger King Corp. v. Rudzewicz, 105 S.
Ct. 2174 (1985); Phillips Petroleum v. Shutts, 472
U.S. 797 (1985); Helicopteros Nacionales de
Colombia, S.A. v. Hall, 466 U.S. 408 (1984); Calder
v. Jones, 465 U.S. 783 (1984); Keeton v. Hustler
Magazine, 465 U.S. 770 (1984); Insurance Corp. of

15
Ireland v. Compagnie de Bauxites des Guinee, 456
U.S. 694(1982). From 2011 to 2017, this Court
decided six personal jurisdiction cases. See BristolMyers Squibb Co. v. Superior Court of Cal, 137 S.
Ct. 1773 (2017); BNSF Ry. Co. v. Tyrrell, 137 S. Ct.
1549 (2017); Walden v. Fiore, 571 U.S. 277 (2014);
Daimler AG v. Bauman, 571 U.S. 117 (2014);
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011); J. McIntyre Mach., Ltd. u.
Nicastro, 564 U.S. 873 (2011).
“On every writ of error or appeal, the first and
fundamental question is that of jurisdiction, first, of
this court, and then of the court from which the
record comes. This question the court is bound to
ask and answer for itself, even when not otherwise
suggested, and without respect to the relation of the
parties to it.” Great Southern Fire Proof Hotel Co., v.
Jones, 177 U.S.. 449, 453 (1900). Jurisdiction
“would normally be considered a threshold question
that must be resolved...before proceeding to the
merits.” Steel Co. v. Citizens for a Better Env’t, 523 U.S.
83, 101 (1998). Jurisdiction is always an antecedent
question and is “inflexible and without exception.”
Mansfield, C. & L. M. R. Co. v. Swan, 111 U.S. 379,
382 (1884).
The Court cannot resolve contested questions
of law when its jurisdiction is in doubt. The
threshold question in this case was whether the
Washington Court had personal jurisdiction in 2017
to rule on the merits of the case when it already
dismissed the claims for lack of personal
jurisdiction upon the defendants. The Washington
court’s jurisdiction was further blurred about
because the minor plaintiffs had not been properly

16

before the court when they were unrepresented by
legal counsel and mandatory guardian ad litem.
Without first addressing the contested threshold
jurisdiction question that “the court is bound to ask
and answer for itself’ “on every writ of error or
appeal.” Great Southern Fire Proof Hotel Co., v.
Jones, 177 U.S.. 449, 453 (1900). This was exactly
what Judge Schubert said at the hearing:
You deal with jurisdiction first. That’s the way
it’s always been. That’s the way it should have
been here.
App K, at 136a; also App N, at 202a.
The Washington court disagreed. “We need not
resolve the issue of whether Judge Hill, in fact, first
resolved the jurisdictional issue in Chen’s favor,”
and “the court must have dismissed the claims
against the physicians on the merits.” See App C at
10a.lt further concluded that Judge Schubert
abused the discretion for first resolving jurisdiction
issue. The decision directly conflicts with this
Court’s holdings, e.g., Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 101 (1998) (Jurisdiction is a
threshold question that must be “resolved first.”).
Washington Court of Appeals’ reasoning that a
court could ignore jurisdiction but just proceed to
if
act on the merits is dangerously flawed
accepted, Oregon Courts could act against
Washington residents without having to first obtain
jurisdiction; or trial court could take over appellate
court’s appellate authority as long as it chooses to
do so. This Court’s supervisory power is thus
justified. See SUP. CT. R. 10 (a).

17

Jurisdiction is a matter of constitutional
concern. See e.g., Shaffer v. Heitner, 433. U.S. 186
(1977); Hanson o. Denckla, 357 U.S. 235 (1958); also
Brilmayer, How Contacts Count: Due Process
Limitations on State Court Jurisdiction, 1980 Sup.
Ct. Rev. 77, 77-79 (assuming traditional bases of
jurisdiction are matter of constitutional law);
George, In Search of General Jurisdiction, 64 TuL.
L. Rev. 1097, 1107 (1990) (assuming personal
jurisdiction is an issue of constitutional law);
Kurland, The Supreme Court, the Due Process
Clause and the In Personam Jurisdiction of State
courts: From Pennoyer to Denckla: A Review, 25 U.
Chi. L. Rev. 569, 573 (1958) (assuming personal
jurisdiction is an issue of constitutional law).
The Washington courts did not have
jurisdiction to render judgment against minor, J.L.
because he had not been properly before the courts
because minors are considered legally incompetent
and he was prohibited from being represented by
pro se parent. Both federal and state laws, prevent
a non-attorney from representing on others’ behalf
and there is no exception for pro se parents. 28 U. S.
C. § 1654; RCW 2.48.180. All circuits across the
country ruled that minor is not bound to their
parents’ pro se actions and had chosen to enter a
dismissal without prejudice, “thereby giving
[minors] further opportunity to secure an attorney
at some later time within the limitations
period...[minor] should not be prejudiced by his
father’s failure to comply with the court order.”
Johns v. County of San Diego, 114 F.3d 874, 876-77
(9th Cir. 1997). Here, Washington courts’ refusal to
clarify the dismissal as to the minor was without

18
prejudice has effectively deprived Chen and J.L.’s
Due Process rights to judicial notice. This Court
should accept for review and reverse under
Supremacy Clause, e.g., Cipollone v. Liggett Group,
Inc., 505 U.S. 504 (1992). See SUP. CT. R. 10 (b).
The core issue for this appeal is jurisdiction:
whether the court has authority to render judgment
against unrepresented minors; whether a court
lacking personal jurisdiction over defendants can
further rule on the merits; and whether the order
was void ab initio given the extraordinary facts:
unsigned complaints, improperly served defendants
and statutorily recused judge and essentially
unrepresented minors.
“It is the responsibility of all courts to see that
no unauthorized extension or reduction of
jurisdiction,
direct
or
indirect,”
Baltimore
Contractors, Inc. v. Bodinger, 348 U.S. 176, 181
(1955). When the lower courts lack jurisdiction, this
Court is obliged to exercises its supervisory power
for “the purpose of correcting the error of the lower
court.” United States v. Corrick, 298 U.S. 435, 440
(1936). See e.g., McGirt v. Oklahoma, 591. U.S.
__(2020) (reversing conviction judgement entered by
Oklahoma state court when the alleged unlawful
act was only subject to federal jurisdiction, not state
jurisdiction). The McGirt decision results in
“thousands of convicted criminals may have their
convictions undone” Wikipedia. See also Hanson v.
Denckla, 357 U.S. 235 (1958) (“The Florida court
did not have in rem jurisdiction...or personal
jurisdiction... without such jurisdiction it had no
power under Florida law to pass on the validity of
the trust. Therefore, its decree is void”).

19

II.

This Case Is An Appropriate Vehicle
Important
The
Deciding
For
Constitution Question Related to Due
Process Rights.
A. The Ambiguous Order Itself Is A Due
Process Violation.

Due process provides parties right to notice,
hearing and an impartial judicial officer. The
burden of ensuring due process rights was upon
parties as well as the court. Caperton v. A. T.
Massey Coal Co., 556 U.S. 868 (2009) (when the
probability of actual on the part of the judge or
decisionmaker is too high to “be constitutionally
tolerable”).
Petitioner did not receive an adequate judicial
notice as to the 2017 Order. The silence in the
Order and absence of language as to the legal
effects as well as the Court’s refusal for clarification
resulted in four years’ appellate inquiries. The
question presented is simple and straightforward:
Whether a litigant has a Due Process right to a
clear judgment from the court.
J.L. had not been properly before the Court,
although J.L.’s name was mistakenly added in the
complaint (Chen quickly clarified to the Court, see
CP 4). As argued by the Respondents, the dismissal
to J.L. was proper because the mandatory guardian
ad litem was not appointed. CP 524-5. See also
RCW 4.08.050. Mezere v. Flory, 26 Wn. 2d 274, 173
P.2d 776 (1946) (“the appointment of a guardian ad
litem is mandatory.”). Dependency of A. G., 93

20
Wn.App. 268, 968 P.2d 424 (1998) (“The [guardian
ad litem] statute is mandatory, and the children’s
interests are paramount.”). Newell v. Ayers, 23 Wn.
App. 767, 598 P.2d 3 (1979) (“the rule is that a
minor must be represented by a guardian ad litem,
or the judgment against him may be voidable at his
option.”). Washington supreme court held that
absent a guardian ad litem who could receive notice
on minor’s behalf, the minor plaintiffs action was
not time barred. Anderson v. Dussault, 181 Wn.2d
360, 333 P.3d 395 (2014). Also State v. Douty, 92
Wn. 2d 930, 603 P.2d 373 (1979) (“it should be
noted that the child, though named in the action,
was never served. Consequently, he is not before
the court.”).
Most importantly, of course, J.L. was not
represented, and he cannot be represented by pro se
parent. 28 U. S. C. § 1654; RCW 2.48.180. Under
Washington law, J.L. had not been properly before
the court, e.g., Wash. State Bar Assn. v. Great W.
Union Fed. Sav. & Loan Assn., 91 Wn.2d 48, 586
P.2d 870 (1978) (“[o]rdinarily, only those persons
who are licensed to practice law in this state... [t]he
‘pro se exceptions are quite limited and apply only
if the layperson is acting solely on his own behalf.”).
legally
incompetent,
without
are
Minors
representation, the action on behalf of J.L was a
nullity, and there was no action on behalf of the
minors for judicial consideration.
Respondents mistakenly suggested the statute
of limitation has expired (App I, at 59-60a), but this
does not apply to minors. In fact, Washington
supreme court struck down RCW 4.16.190 (2),
holding it unconstitutionally deprived minors’

21
rights under equal protection. Schroeder v. Weighall
et al. 179 Wn.2d 566; 316 P.3d 482 (2014). The
Washington Supreme Court held that, minor’s
medical malpractice claim is subject to tolling until
reaching the majority of age.
Absent legal representation and the guardian
ad litem, minor J.L. has not been properly before
the court and the Court has not obtained
jurisdiction over him. “Without jurisdiction the
court cannot proceed at all in any cause.
Jurisdiction is power to declare the law, and when
it ceases to exist, the only function remaining to the
court is that of announcing the fact and dismissing
the cause.” Ex parte McCardle, 7 Wall. 506, 514
(1869).
In Motion for Reconsideration, Chen asked the
court to clarify that the dismissal should be without
prejudice as to the minors:
As to the minors’ claims only, the dismissal
should be without prejudice for re-filing, as
they are still in their minority, and the
statute of limitations is tolled until they
reach majority. RCW 4.16.190. Schroeder v.
Weighall et al. 179 Wn.2d 566; 316 P.3d
482; 2014 Wash., holding RCW 4.16.190 (2),
which excluded medical malpractice claims
from tolling unconstitutional.
Alternatively, due to failure to appoint a
GAL to bring the action, the action on
behalf of the minors was a nullity, and
there was no action on behalf of the minors

22
for judicial consideration, and therefore no
action to dismiss.
See App J. at 82a
The Court (Judge Hill) refused to clarify, except
for an order denying reconsideration. Chen was
forced to go through four (4) years’ time-consuming
appeal, for the sole purpose of seeking a
clarification as to the ambiguous order. Her appeal
was dismissed. Judge Schubert observed the
jurisdictional defects and vacated the ambiguous
order on Chen’s motion to vacate, it was reversed on
Migita’s interlocutory appeal.
As a threshold requirement of Due Process, J.L.
was still entitled to a clear judgment. However, he
did not even know whether or not he was bound to
the judgment - Judge Hill refused to clarify, except
denying
order
another
for
reconsideration/clarification, The Chief Judge
agreed that “ [t]he parties (and the appellate court)
are entitled to know the legal effect of this Court’s
orders.” There, he specially raised the jurisdictional
inquiry ( See App G, 31a):
Was dismissal due to a lack of personal
jurisdiction, and thus without prejudice? Or
was dismissal with prejudice due to a
finding of both personal jurisdiction over
Defendants and a lack of meritorious claims
against them?
The Chief judge noted that the limit of a court
lacking jurisdiction is the entry of dismissal without
prejudice. Thus, the Court ruled,

23
The silence of this Court’s orders in that
regard creates a question of regularity of
the proceedings that justifies relief from the
operation of those orders.
Id, at 31a.
“A judgement entered by a court which lacks
jurisdiction is void and must be vacated whenever
the lack of jurisdiction comes to light.” Allied Fid,
Ins. Co. v. Ruth, 57 Wn. App. 783 790 P.2d 206
(1990). Following the law, the chief judge vacated
the order with jurisdictional defects, which was
pitifully found by the Court of Appeals to “abuse the
discretion.” The Court of Appeals further ruled that
“[the court] need not resolve the issue of whether
Judge Hill, in fact, first resolved the jurisdictional
issue in Chen’s favor.” App C, at 14a. The Court of
Appeals claimed Judge Schubert’s resolution of
jurisdictional defect was to correct a legal error
made by Judge Hill. Opinion at xx. Legal errors are,
however, associated with a court that has complete
jurisdiction. Dike v. Dike, 75 Wn.2d 1, 448 P.2d 490
(1968). The Court of Appeals was silent how a court
could
disregard
the
threshold jurisdiction
requirement. 5

^ The Court of Appeals suggested Judge Hill must have
dismissed the case on the merits. This is not, however, the
only explanation of 2017 order because SCH repeatedly stated
that it cannot be sued for “vicarious liability” because “the
three co-defendant physicians are not employees of Seattle
Children’s Hospital.” See CP 412, also CP 527.

24
As the affected party, Chen sought judicial
clarification that they are entitled to, i.e., a clear
judgment about the legal effect. Judge Hill refused
to clarify whether it was with or without prejudice
for the minors, except for a denial order. The silence
of language as to with/without prejudice in the
orders "that fail to remark [on] a jurisdiction issue
are not assumed to have resolved it by their
silence." Crawford v. United States, 796 F.2d 924,
928 (7th Cir. 1986) (internal citations omitted).
The issue here is not just whether or not the
order was wrong, but that J.L. was entitled to a
clear due process notice about whether and/or how
he was bound to that order. The ambiguous order
(and Judge Hill’s refusal) itself is a due process
violation.
B. The Trial Judge’s Failure To Recuse
Is A Due Process Violation.
impartiality,
of
principle
“[T]he
disinterestedness, and fairness on the part of the
judge is as old as the history of courts.” State ex rel
McFerran v. Justice Courts of Evangeline Starr, 32
Wn.2d 544, 548, 202 P.2d 927 (1949) (quoting State
ex. Rel. Barnard v. Bd. Of Educ., 19 Wash. 8, 17, 52
P.317 (1898)); also Diimmel v. Campbell, 68 Wn.2d
697, 699, 414 P.2d 1022 (1966) (“It is incumbent
upon members of the judiciary to avoid even a cause
for suspicion of irregularity in the discharge of their
duties.”). “[0]ur system of law has always
endeavored to prevent even the probability of
unfairness,” In re Murchison, 349 U.S. 133, 136, 75
S. Ct. 623, 99 L. Ed. 942 (1955). The judge must

25
recuse himself where “he has an interest in the
outcome.” Id.
Both American and Washington Code of Judicial
Conduct Rule 2.11(A)(6)(d) requires disqualification:
(A) A judge shall disqualify himself or herself in
any proceeding in which the judge’s
impartiality* might reasonably be questioned,
, including but not limited to the following
circumstances:
(6) The judge:
(d) previously presided as a judge over the
matter in another court.
(emphasis added).
Judge Hill previously presided over the matter
in another court (Juvenile Court), thus was
mandatorily recused from this case. Further, this
case was as result of the underlying dependency
action where Judge Hill was the presiding judge
who had made multiple discretionary decisions,
including but not limited to order an out-of-home
placement for J.L., which turned out to be wrong.
The state moved to unilaterally strike the
dependency action before trial and the handling
assistant attorney general apologized to Chen.
Judge Hill reviewed evidence and testimonies from
witnesses who would re-appear and testify at the
current case that was based on damages occurred
from the wrongful removal and the wrongful out-ofhome placement, highly related to Judge Hill,

26

Judge Hill’s impartiality was thus reasonably
questioned.

Here, the Court of Appeals mistakenly claimed
that Judge Hill’s deep involvement in the
underlying dependency case does not require a
recusal because “We presume, however, that judges
perform ‘regularly and properly and without bias or
prejudice.” See App. C at 17a. However, the law
does require to decide whether in fact the judge was
influenced. Aetna Life Ins. Co. v. Lavoie, 475 U.S.
813 (1986). Also see Turney v. Ohio, 273 U.S. 510
(1927).The Turney Court concluded that the Due
Process Clause incorporated the common-law rule
that a judge must recuse himself when he has a
direct, personal, substantial, pecuniary interest in a
case. This rule reflects the maxim that [n]o man is
allowed to be a judge in his own cause; because his
interest would certainly bias his judgment, and, not
improbably, corrupt his integrity. The Federalist No.
10, p. 59 (J. Cooke ed. 1961) (J. Madison).
Judge Hill does have a direct interest in the
outcome of the case because her erroneous decision
to place J.L. in out-of-home placement in the
underlying dependency case. Judge Hill should
have recused from hearing the case but did not.
Judge Hill’s failure to recuse had deprived
Petitioner’s Due Process right to an impartial
tribunal. See Frank, Disqualification of Judges, 56
Yale L.J. 605, 611612 (1947) (same). It is axiomatic
that [a] fair trial in a fair tribunal is a basic
requirement of due process. In re Murchison, 349
U.S. 133, 136 (1955).

27
III.

The question presented involves a
of
exceptional
issue
recurring
threatens
the
that
importance
fundamental right of access to the courts.
A. Absent Legal Representation, J.L.’s access
to the Courts had been denied.
J.L. has a right to adequate representation. As a
minor, J.L. has rights to be heard, at a meaningful
time and in a meaningful manner through a
competent counsel. Absent this prerequisite, his
minimal access was denied.
Whether pro se parents could represent the
minor children in courts is a recurring issue.6 All
circuit courts across the county prohibit a non­
attorney from representing on others’ behalf, with
no exemption for pro se parents. Indeed, all circuits
to address the question subscribe to this rule. See
O’Diah v. Volkswagen of Am., Inc., 91 Fed. Appx.
159, 160 (1st Cir. 2004); Cheung v. Youth Orchestra
Found. Of Buffalo, Inc., 906 F.2d 59,61 (2d Cir.
1990); Osei-Afriyie v. Med. Coll. Of Pennsylvania,
937 F.2d 876, 882 (3d Cir. 1991); Myers v. Loudon
County Pub. Schs., 418 F.3d 395, 401 (4* Cir. 2005);
Shepherd v. Wellman, 313 F.3d 963, 970 (6th Cir.
2002); Smith v. Smith, 49 Fed. Appx. 618, 620 (7th
Cir. 2002); Johns v. County of San Diego, 114 F.3d
874, 876-77 (9th Cir. 1997); Meeker v. Kercher, 782
F.2d 153, 154 (10th Cir. 1986); Devine v. Indian

6 In 2007, this Court accepted for review but did not resolve
this issue. See Winkelman v. Parma City School District, 550
U.S. 516 (2007).

28
River County Sch. Bd., 121 F.3d 576, 578, 582 (11th
Cir. 1997), cert, denied, 522 (U.S. 1110(1998). These
decisions further support that dismissal without
prejudice is the limit that a court lacks personal
jurisdiction could act.
Washington courts have decades-long history of
rejecting non-attorney representation. Wash. State
Bar Assn. v. Great W. Union Fed. Sav. & Loan
Ass?r., 91 Wn.2d 48, 586 P.2d (1978) ("The pro se’
exceptions are quite limited and apply only if the
layperson is acting solely on his own behalf’)
(emphasis in original); Also Hagan v. Kassler
Escrow, Inc., 96 Wn.2d 443, 635 P.2d 730 (1981)
(“In passing RCW 19.62, allowing lay persons to
practice law, the legislature imprecisely usurped
the courts’ power. Accordingly, RCW 19.62 is
unconstitutionally as a violation of the separation of
powers doctrine.”).
The common law ban on lay parent
representation comports with 28 U.S.C. § 1654,
which provides that “In all courts of the United
States the parties may plead and conduct their own
cases personally or by counsel...” Non-attorney
representation is a crime in Washington. RCW
2.48.180. State v. Yishmael, 195 Wn.2d 155, 456
P.3d 1172 (2020).
The common law rule furthers several
important policy objectives. Pro se representation
carries with it risks that are not present, compared
to parties represented by counsel. McNeil v. United
States, 508 U.S. 106, 113 (1993) (a litigant without
counsel could make “a fatal procedural error”). This
case illustrates the point. In its Opinion, the Court

29
of Appeals admonished Chen’s incompetency, e.g.,
‘‘Chen made no request to SCH for medical records
through discovery or otherwise” before the
defendants moved for summary judgment.7 App C,
at 17a. Even finding Chen’s incompetency, the
Court did not appoint the mandatory GAL., but
concluding that J.L could be represented by a pro se
parent. Id, at 18a.
When an adult chose to proceed without
counsel, he assumes the risk. Graham-Humphresys
v. Memphis Brooks Museum of Art, Inc., 209 F.3d
552, 561 (6th Cir. 2000). However, minors are not
bound to their parents’ pro se actions in such
instances. Jurisdictions across the country had
chosen to enter a dismissal without prejudice,
“thereby giving [minors] further opportunity to
secure an attorney at some later time within the
limitations
period... [minor]
should
not
be
prejudiced by his father’s failure to comply with the
court order.” Johns v. County of San Diego. The
Second Circuit explained:
The choice to appear pro se is not a true
choice for minors who under state
law...cannot determine their own legal
actions. There is thus no individual choice
to proceed pro se for courts to respect...goes
without saying that it is not the interest of
minors or incompetents that they be
represented by non-attorneys. Were they

7 The order granted motion for summary judgment was
entered six months before the discovery cutoff.

30
have claims that require adjudication, they
are entitled to trained legal assistance so
their rights may be fully protected.
Chueng, 906 F.2d at 61 (remanding to district
court so it could either appoint counsel or dismiss
the complaint without prejudice); See also Johns v.
County of San Diego, 114 F.3d 874(9th Cir. 1997)
(directing the district court to change dismissal
with prejudice to without prejudice; “because the
goal is to protect the rights of infants, the
complaints should not have been dismissed with
prejudice as to minor”)- The Courts agreed that
“[t]he infant is always the ward of every court
wherein his rights or property are brought into
jeopardy, and is entitled to the most jealous care
that no injustice be done to him.” Osei-Afriyie v.
Medical College of Pennsylvania, 937 F.2d 876, 883
(3rd Cir. 1991).
B. This is an Ideal Vehicle to Address the
“Seldom” Reviewed but Important Rights of
Access to The Courts.
Writing for the Supreme Court in Bounds v.
Smith, 430 U.S. 817 (1977), Justice Thurgood
Marshall spoke confidently of "the fundamental
constitutional right of access to the courts." Justice
Marshall also stressed that the access needs to be
“meaningful”. Id.
This case presents an extremely unusual
situation involving a disabled minor whose access
was denied. He did not have any minimal access, let
alone “meaningful”. He was not represented, he was
not given an opportunity to conducted discovery,

31

the order was entered by the judge who previously
decided to place him in out-of-home placement leading to permanent and unreversible disabilities.
Access to the Courts must be meaningful. But
here, the minimal access for this disabled minor
had not even been satisfied. The issue here is not
whether or not J.L. will eventually be able to prove
his case or prevail at trial; but that his access
should not have been deprived for denying
appearance of his legal counsel. Whether or not the
case has merits, it should be left to the open courts,
instead of kicking an unrepresented disabled child
the courtroom, without
permanently out of
conducting any discovery. The facts that J.L. had
been denied counsel by the superior court, the
appellate court, the supreme court of Washington
will bring “chilling effects” to the public confidence
to our judicial system.
This Court should take this case as an
excellent vehicle to reiterate the importance of the
access to the courts, the cornerstone of our justice
system. “This Court has seldom been asked to view
access to the courts as an element of due process.”
Boddie u. Connecticut. 401 U.S. 371 (1971).
Decades could pass before this Court has another
opportunity to review this important issue.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted
/s/ Susan Chen
Susan Chen, pro se Petitioner
PO BOX 134, Redmond, WA 98073

